                         WORKING TOWARD JOBS


                                  The Oklahoma

                        Employment and   Training (E&T)   Program




            tR.VICE$'




'0


     Jvol
            dIa

OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS

                                                                    MAY 1990
_1_'                        The Oklahoma
                  Employment and   Training (E&T)   Program




                            Richard P. Kusserow
                             INSPECTOR GENERAL




OEI-12-89-01327                                               MAY 1990

                                    . . . . . . . . . . . .. .., ... ... ... ... ... ... ... ... ... ... .., ... ... ... ... .., ... .., .., ... ... ... ... ..,................,........ ..
                                       ..................................                                                                                                                 ... ... .. .. , , ..
                                                                                                                                                                                                        . .




INTRODUCTION


PROGRAM PROFILE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                                             . . . . . 2

             THE STATE OF OKLAHOMA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                   . 2

             THE OKLAHOMA AFDC PROGRAM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


             THE OKLAHOMA AFDC WORK PROGRAM. . . . . . . . . . . . . . . . . . . . . . . 2


                       General Background. . 

                       Administrative Issues                                                                                                                                                             . 3



                       Participation Issues. .                                                                                                                                       . . . . . . . 4

                       Program Activities                                                                                                                                                         . . . 4


Appendix A
             OVERVIEW STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A -


Appendix B

     SAMPLE DOCUMENTS                                                                                                                                                                          . . B­
                                                                     .....
                                                                      ....
                                                                   :::::




           This technical report is par of a series of
           profies on the Aid to Famlies with Dependent
           Childrn (AFC) work               programs parcipating
           in the   Working Toward JOBS 
        project.

           Each profie begins with a categorized
           descrption of the subject AFC work program,
           which is based on mail guides submitted by the              1111

           progr. Appendi A includes an overview
           statement wrtten by the program manager. It
           descrbes the program , its goals, philosophy and
           lessons leared. Appendix B is a sample of
           documents used to conduct the program. Each
           progr admnistrator was asked to submit
           sample documents which they felt would be
           useful to States and counties developing JOBS
           progrs.
           Data collection for this study was done from
           Apri to September of 1989. The information in
           the overview and technical reports is based on
           pre-JOBS work programs for AFC recipients.
           As these progrs have converted to JOBS,                 rIr
           they may have made some changes - to meet
           JOBS legal and regulatory requirments.
           Where possible, we have noted the changes the
           progr administrators anticipated at the time
           of our data collection.




Oklahoma                                          INTRODUCTION
 THE STATE OF         OKLAHOMA

              Population: 3, 242 000

              Major industres: agrculture, oil , tourism

              First quarer 1989 unemployment rate: 5. 8 percent

              Per capita personal income in 1987: $12 558

              Percentage of people living below the povert line: 16.


THE OKLAHOMA AFDC PROGRAM

              For Fiscal Year    (F) 1988:

              Total cost: $155,783, 022

              Federa shar: $90, 683, 803; State share: $65, 099, 219

              AFC cases:       36, 509

              Client average:

                                  Age: 31.02

                                  Grade last completed: 11.54
                                  Number of childrn in  grt:   1.97
                                  Age of youngest child in grt: 6.
                                              68 percent have a child under the age of 6
                                              40 percent have a child under the age of 3
                                  Length of spell on AFC: 16 months (estimated)
              Case closures:    28, 216



THE OKLAHOMA AFDC WORK PROGRAM


General Background

Name:         Oklahoma Employment and Traning (E&T) Program

Operating Since:        Januar 1 ,    1982

Philosophy:          The most valuable service we can give to an AFC recipient is to help her
              become self-supportng " is the succinct philosophy of E&T. They feel that the
              work world is the best way to lear how to manage in the work world. They
              believe that the best way to lear self suffciency is though entr level
              employment or, if that is not possible , time- limited unpaid community work
              expenence.



Oklahoma                                         PROGRAM PROFILE
Program Administrator:
      Paul E. Waler
                 Programs Supervisor
                 Famy Support Services Division
                 Deparent of Human Servics
                   O. Box 25352

                 Oklahoma City, OK 73125

                 (405) 521- 3932


Administrative Issues

Strcture:            Oklahoma s is a state admnistered, centrly   run   progr operated entily   by
                 the State   Deparent of Human Services (DHS).

Funding:            Program costs ar: $3, 815, 721; $1 985,788 Federal share, $1 829, 933 State
                 share. Related supportve services ar $1, 756, 531. Total costs ar: $5, 572 252.

Staff:           There are 91 full- time equivalent employees workig as social workers or job
                  developers associated with E&T. Social workers act as case managers in addition
                  to determning eligibilty and providing services. Job developers provide
                  specialzed trning and employment related services.

Success Measurements: 
          Oklahoma measurs the success of their progr by trcking the
                 number of persons who complete 30 days of full-time unsubsidized employment.

Recordkeeping:               Oklahoma maintais the following records on their work progr:
                 parcipation by component,   demogrphics, unsubsidized employment and
                 income, and closed cases by distrct offce.

Provision of Services: 
         Servces are generaly provided directly by DHS staf. Oklahoma
                 does not have a strongly developed community services system. Hence, the tyes
                 of services in E&T can best be provided by State employees.

Outside Resources: 
          The E&T has an interagency agreement with the Job Training
                 Parership Act (ITPA) Service Delivery Areas (SDAs) and the Cherokee Nation
                 of Oklahoma. The ITA SDAs and the Cherokee Nation provide classroom
                 trning, on- the-job trning, books and supplies.


                 The Oklahoma State Employment Service (OSES) provides varous tests to
                 determne skiUlevels and abilties under an interagency agrement with E&T.




Oklahoma                                           PROGRAM PROFILE
              The AFC clients who need vocational education can be referred to the State
              Deparent of Vocational Education.

              Evaluations:   The Federa Offce of Family Assistance perfonned a fIrst and a
              third year evaluation of the program. The evaluation found a much greater level
              of services and employment in the Work Incentive (WI) Demonstration program
              than in the previous WI program. The evaluation found that the waiver
              eliminating the age of the youngest child as an exemption criteria , was very
              effective in helping E&T clients.

Participation Issues



Partcipant Descriptors:                        Curnt registration is 28, 512.   Parcipants are generaly
              between the ages of 21 and 45. Most, 81.45 percent, completed 10th grade or
              above; 54. 81 percent completed high school. The average number of children in
                  grtis 1.97. Sixty-eight percent have a chid under age 6; 40 percent have a
              child under age 3. The average lengt of spell on AFC is estimated to be 14
              months. Oklahoma has a 1115 waiver allowing them to make parcipation
              mandatory regardless of the age of the client s youngest child.

Target Groups: 
                  No tagetig is done.

Mandtory                               This is a mandatory progr. Parcipants are expected
                       Activities/Sanctions:

              to be active in the progr at al ties. In FY 1988, 62 sanctions were taken
              agaist AFC recipients who did not comply with E&T.
Volunteers:         Clients ar advised of their exempt status, if applicable, but are encouraged
              to volunteer. In their contacts with exempt clients, Oklahoma social workers
              stress the advantages of the program.

Employment Placements: 
                       In calenda year 1988 E&T made: 3      244 par- time   placements
              and 6,964 full- tie placements, that lasted for at least 30 days. Approxiately
                500 of these par- and full- tie placements resulted in a case closure. Of those
              case closurs, 6, 878 maintaned their job for 30 days. Approximately 20 percent
              of those who found unsubsidized employment though the work program in FY
              1988 have rejoined AFC. Typical work is in the service sector.

Program Activities

Models:         Oklahoma believes its community work experience program (CWEP) to be the
              most effective component in helping recipients enter unsubsidized employment.
              They named Welcome to Work, an orientation and job readiness session , the most
              cost-effective.



Oklahoma                                                      PROGRAM PROFILE
                We also asked each progr admnistrator to describe a model practice or
                progr site. The E&T progr admnistrtor described the Enid State School as
                a goo example of a CWP work site. Parcipants performng CWEP at the Enid
                State School receive training, monitoring, and routie counseling. They also
                receive a short job readiness workshop once a week which focuses on coping
                with change and getting along with others. This workshop was developed by
                local welfare office staff to provide support and give paricipants a chance to vent
                any frstrations.



Sequencing:           All registrants ar assessed and an employabilty plan developed.
                Registrants are then assigned a needs status for employment, training, education
                or additional social services. Durg the year, 20- 25 percent wil spend some
                tie in an employment, education or trning component. Additional sequencing
                information is contained in the specific listings in the next section.

Program Activities Listing: 
        What follows is a listing of E&T components. Cost,
                parcipation , and placement figures are for FY 1988.




Assessment
Activity:         Assessment includes completion of pages 1- 3 of Form ET- 2 (See copy in
                appendix B) and an interview by the social worker to review and evaluate the
                parcipant s skills, educational achievements, trning, work experience,
                vocational interests and service needs. It may also include formal testing to
                measure literacy skils, vocational skills and interests, work attitudes and
                aptitudes for varous tasks.

How Provided: 
           The initial assessment is conducted by DHS staf. Formal evaluations
                and testing ar provided by vocational technical schools, OSES, community
                colleges, and adult education centers. The initial assessment is a one-on-one,
                face- to-face interview. Formal testing and evaluations are conducted in groups
                and individually, depending on the type of test and the provider.

Participants:          Approximately 32   000.

Anticipated Changes:            The assessment document has been expanded from two pages to
                four to include additional information about prior employment, traiing,
                education , and individual interests. Social workers have also been encouraged to
                make referrs for formal evaluations.




Oklahoma                                         PROGRAM PROFILE
EmployaDilfy Planning

Activity:         The development of an employabilty plan includes the identifcation of        a
                specific vocational goal, objectives, and activities necessar to achieve the
                objectives and estimated dates for achievement. The employability plan may
                include assignment to specific components, referrals to other agencies for services
                and activities such as skill training and/or provision of social services.

How Provided: 
         Developed jointly by the AFDC recipient and the DHS social worker in
                one-on-one interviews.

Participants:            Approximately 32   00; assessments ar completed prior to development of
                the employabilty plan.




Supportive Services

Activity:         The DHS provides the following supportve services: transportation
                alowances, " star-up " payments for parcipants in the CWEP, alowances for
                uniforms and other special clothing, medical examinations when necessar for
                trning or employment, and vendor- purhased child care.


How Provided: 
          Reimburement of trsporttion expenses, " star-up " payments for
                parcipants in CW, uniform and clothing allowances , and payment of medical
                examnations ar provided by DHS. Vendor- purchased day car is provided
                private and public day car homes and centers who contrct with DHS.
                Trasporttion expenses and CWEP " star-up " payments are provided dictly to
                the parcipant through a claims proessing system. Payment for uniforms and
                special clothing, and medical examations ar made dictly to the vendor.
                Payments for child ' car ar also made diectly   to the vendor.


Participants:            Approximately 9, 200.

Costs:          $1, 756,000, an average of $190 per parcipant.

Anticipated Changes: 
         Uniform and clothing allowances have been increased to provide
                proper atti for parcipants who need this service. Authorizations for medical
                exams have been expanded to include physicals when necessar for employment.




Oklahoma                                           PROGRAM PROFILE
 Orientation And Job Readiness Activities / Welcome To Work
 Activity:        Oklahoma has combined orientation (progr description and activities) with
               our job-readiness workshop to provide a comprehensive overview of services
               available through the program and to provide self-esteem enhancement to
               parcipants in a timely and cost-effective manner. Welcome to Work consists of
               five, four- hour group sessions and, in addition to program information , includes:
               exercises to build self-confidence, employer expectations, interviewing,
               completing job applications, setting goals, and managing home and work.

 How Provided: 
         The county DHS job developer serves as facilitator for the workshop
               which is conducted in a roundtable settng.

Partcipants:         Approximately 3, 600. Targeted toward recipients who: have little or no
               work experience, have been out of the labor maket for at least 6 months, are
               curntly parcipatig in a work experience progr, have low self-esteem, or
               have been termnated from work or trning due to inappropriate behavior. An
               assessment and employabilty plan have been completed for each individual.

 Costs:        $45, 00 (not including admnistrtion),    or $12. 50   per parcipant.

Anticipated Changes: 
        Will be expanded to include additional information on services
               avaiable -though the employment progr and additional exercises to increase
               self-esteem and problem-solving skills.

Basic Education

Activity:        Includes instrction in reading, wrting and math from a varety of service
               providers to enable an individual to attan a basic literacy level equivalent to
               grade eight. The DHS provides reimbursement of trsportation        expenses,   and,
               when needed, vendor- purhased day care.

How Provided: 
          Basic education servces are provided on a non-contractual basis by
               volunteer literacy groups, adult learing centers, (public school system)
               vocational technical schools and community colleges. Service provision depends
               on the provider. Volunteer literacy councils provide one-on-one tutoring, adult
               learing centers and  community colleges offer classroom instrction and
               vocational technical schools provide computer-assisted learing.

Partcipants:          Approximately 83. AFC recipients who have a basic literacy level below
               the eighth grade are recommended for this activity. Parcipants wil have had an
               assessment completed and an employabilty plan developed. Many parcipants
               wil have paricipated in orientation and job readiness groups. In most instances,



Oklahoma                                         PROGRAM PROFILE
                the parcipant would move from basic education to genera education
                development classes in prepartion for the high school equivalency tests.

 Anticipated Changes: 
        Resources for basic education instrction are being expanded
                through coordination and collaboration in keeping with the mandate of JOBS.

 High School Equivalency

 Activity:        High School Equivalency (OED) classes ar       offered on   a referral basis to all
                AFC recipients who do not have a high school diploma. The OED classes offer
                instrction in varous subjects   to prepar individuals to take the GED exam.
                Instrction is provided by varous agencies with DHS providing reimbursement
                for ttansporttion expenses   and vendor- purhased day car.      DHS wil also pay
                the GED test fee.

How Provided: 
           The GED classes are provided on an non-contractual basis by adult
                learing centers (public school system) and community colleges. The majority of
                providers offer instrction in a classroom   settig.


Participants:          Approximately 615. Recommended for AFC recipients under age 24
                who do not have a high school diploma or its equivalent. All parcipants wil
                have completed an assessment and an employabilty plan. In addition, many
                recipients wil have parcipated in Welcome to Work and some wil have been
                enrolled in basic education.

Costs:          $27, 718; $45 per parcipant.

Anticipated Changes: 
          In keeping with the focus of basic skils development , social
                workers have been ttained to encourages all AFC recipients who do not have a
                high school diploma to parcipate in OED classes. All mandatory parcipants
                will also be referred to this activity. The DHS wil pay the OED test fee.

Post Secondary Education
Activity:         Classrom traiing in an institution of higher education which wil assist
                individual in obtaiing employment in a specific occupation.

How Provided: 
           Referrs wil be made to existing resources, i.e., community colleges,
                State colleges and universities and similar institutions on a non- financial,
                non-contractual basis. Classroom settings.

Participants:          Approximately 2,425. Recommended for recipients who have been unable
                to secure employment due to insuffcient skils and who need a certficate or


Oklahoma                                           PROGRAM PROFILE
               degree to meet their employment goal. Assessments and employabilty plans wil
               have been completed on all parcipants. In addition , many parcipants wil have
               completed Welcome to Work (orientation and job readiess activities).
               Individuals completing post-secondar education programs wil be assigned to            a
               job search activity, i.e., individual job search , strctured job search (direct job
               referrals) or a job search workshop.

Costs:         Perfonned at no cost to the AFC work program.

Anticipated Changes: 
           The AFC recipients who secure financial assistance to attend
               college or other post-secondar programs, wil be allowed to continue provided
               they mainta a grade-point of 2. 0 and can complete studies within a reasonable
               tie.
Job Skils Training

Activity:        Job skills tring includes classroom instrction or on- the-job trning to
               enhance a recipient s vocational skills to enable him/er to be competitive in the
               labor market.

How Provided: 
           Referrals are made to existig   sources,   i.e. vocational technical schools,
               JTA , community colleges, etc. on a non- financial, non-contrctual basis. Skils
               trg        at vocational techncal schools and community colleges is provided in a
               classroom settig.    JTA provides skis tring          though on- the-job trning.

Partcipants:             Approxiately 1 375. Assessment and employabilty plans wil have been
               completed on al parcipants assigned        to skills tring. The majority of
               parcipants wil have completed     Welcome to Work. The majority of paricipants
               wi be assigned to a job search activity.
Costs:         This component is perfonned at no cost to E&T.

Planned Changes:            Social workers have been traied to encourage recipients to enhance
               existing skills though enrollment in skils training programs.


Job Development/Job Placement
Activity:         Job development consists of designated county DHS staf         contacting local
               employers to explain servces avaiable though the work          progr
                                                                                and the
               Federa tageted jobs    ta
                                       credit. Job placement consists of parcipant referrals to
               immedately available positions.




Oklahoma                                          PROGRAM PROFILE
How Provided: 
          The DHS county social workers, counselors from the JTA programs
                and counselors from the OSES conduct job development and placement activities
                for AFC recipients. Accomplished though one-on-one contacts with employers
                and presentations to community and civic groups and organizations.

Anticipated Changes: 
           Enhanced involvement in community activities by AFC social
                workers.


Group Job Search


Activity:         Classroom instrction which is designed to teach individuals techniques to
                enable them to secur employment. The 4 day workshop meets 6 hours per day
                and includes: identication of skis and interests, settig goals, completing job
                applications, developing resumes, interviewing, employer expectations , and
                keeping a job.

How Provided: 
         DHS county social workers serve as facilitators for the workshops which
                are conducted in a classroom settng.

Partcipants:           Approximately 2 00. Recommended for recipients who: have recently
                completed an educational or trning progr, have been unable to obtan
                employment though other activities, or need instrction on how to find a job. All
                recipients wi have had assessments and employabilty plans completed.

Costs:          $41 00, $20.50 per parcipant.

Anticipated Changes: 
           Use of a video presentation to make infonnation more consistent.

Individual Job Search

Activity:          The AFC recipients who are classified as "job-ready , i.e., ar capable of
                enterig or maintanig employment with minimum supportve services, are
                assigned to self- dicted, individual job search. This is an intensive job seeking
                effort by the parcipant with a requird number of employer contacts established
                jointly between the DHS worker and the individual.

How Provided: 
            Individual job searh is monitore by the DHS social worker.
                Parcipants are given    basic instrction in applying for jobs though one-on-one
                contacts with the DHS social worker.

Participants:         Approximately 1, 500. Recipients who have been recently employed or
                who have recently completed a trning program, including a job search
                workshop. Assessments and employabilty plans wil have been completed for


Oklahoma                                           PROGRAM PROFILE
               each parcipant.  Some individuals wil    have completed    Welcome to Work and a
               job search workshop.

 Anticipated Changes: 
         Every paricipant wil be given a job search workbook which
               includes basic information in completing job applications, preparng resumes,
               interviewing, proper grooming, and best methods for finding job leads.

 Work Supplementation / Program Connections

 Activity:        An employment opportnity   under which an AFC recipient is placed on
               full- tie employment with DHS reimbursing the employer for wages paid up to
               $250 per month for 6 to 9 months dependig on the starng salar. Parcipants
               are sti considered AFC recipients and contiue to receive title    XI
                                                                                 medical
               services. Employers ar paid from a wage pool which has been crated by
               diversion of the AFC     grt.
How Provided: 
        Placements ar made by the DHS social worker to private employers
               who have agreed to parcipate in the program. Connections contracts are
               developed with private employers by DHS staf. The employers provide training
               and supervision on an one-on-one basis.

Partcipants:          10. Ths component is appropriate for long- term recipients who have been
               unable to secure employment though other activities. Assessments and
               employabilty plans wil have been completed for al parcipants. Other activities
               would depend on the individual needs of parcipants. Parcipants who
               successfully complete a Connections assignment continue in full- time,
               unsubsidized employment.

Costs:         $15, 00,   or $1 500 per parcipant.


Placements: 8.

Anticipated Changes:            Intensive effort are curntly being   made to market Connections
               to local employers.

Community Work Experience Program

Activity:        The CWP is " hands-on " trning in public and private, non- profit
               organizations and agencies which provides parcipants with an opportunity to:
               enhance existing skills and develop new skills, develop appropriate work habits
               and ear a recommendation from an employer, gain confidence by performing in
               an actual job settig, and determine interest and aptitude for varous types of
               work. The CWEP placements are limited to 90 days with a provision for a 30 day


Oklahoma                                         PROGRAM PROFILE
                 extension when needed. Parcipants       are not paid a salar   but continue to   receive
                 AFC and are entitled to a $30. 00 " sta-up " alowance, transportation expenses
                 and vendor- purchased    day care when needed.

 How Provided: 
         Referrals are made to public and private , non- profit agencies by the DHS
                 social worker. The trning site provides instrction and supervision. Referrals
                 CWEP traiing sites are made from one-on-one contacts with the paricipants.
                 Traning and instrction at the sites is also conducted one-on-one.

 Participants:             700. Recommended for recipients who have little or no previous work
                 experience, have limted skills, do not know what their interests or abilties are,
                 need to develop self-confidence, and need to develop good work habits. The
                 CWP is especially appropriate for young mothers with children. Assessments
                 and employabilty plans wil have been completed on every parcipant. The
                 majority of parcipants wil have completed Welcome to Work.

 Costs:          $1, 216, 600, or $450 per person.

Placements: 1 100.


Anticipated Chqnges: 
            Traning sites wil be encouraged and assisted in developing
                 specific objectives for each CWP position to provide more objective evaluation
                 of parcipants performance.

Case Management
Activity:          A single worker is responsible for determning a client's AFC eligibilty,
                 helping their client access needed work program services, and handling referrs
                 to outside agencies.

How Provided: 
            Though meetings between social workers and AFC clients.

Participants:            Appropriate for all.




Oklahoma                                             PROGRAM PROFILE
                                                                          Appendix A



STATE OF   OKLAHOMA DEPARTMENT OF HUMAN SERVICES

Employment and Training Program Overview and the
     New Education, Training, and Employment Program

       The Employment and Traig Prgram was implemented in Januar, 1982 , with
       one purose: To help applicants and recipients of Aid to Familes with Dependent
       Childrn (AFC) become self-suffcient To accomplish this, DHS combined the
       Work Incentive (W) Demonstration Program, the Community Work
       Experience Program (CWE), the Employment Search Progr, Title IV-
       Special Needs, the Work Supplementation Progr (Connections) and a federa
       waiver to fonn one comprehensive program designed to move welfare recipients
       into the work force. The federal waiver allowed DHS to require mothers and
       other cartakers with children under age six to register for and parcipate in
       employment and   trng     activities. Oklahoma was one of only thee States
       which focused on mothers with young chidrn.

       The Employment and Traig (E&T) Prgram was established as a service
       progr based on the belief that every AFC recipient should be given the
       opportnity to become employed. Al AFC social workers were traied to
       discuss employment at every AFC review and to encourge recipients to reach
       their fullest potential by parcipatig in education and/or trning activities. The
       DHS credits a porton of its success in the E&T Progr to the extensive traiing
       which was conducted with AFC sta to view the program as the most important
       servce the Agency could provide to recipients.

       Annual job placement goals also playa significant role in the success of the E&T
       Program. In 1982 , the statewide goal was established at 2 997, a 10 percent
       increase over job placements under the Work Incentive (WN) Program; actual
      placements for the year totaed 3, 501. The   annual statewide goals are
      proportoned among all 79 county offces.

       In addition to the goal of enabling recipients to achieve economic self-suffciency,
       the E&T Prgram strves to dispel the myth that AFC recipients do not want to
       work and to educate the public that welfar clients can work when given
       suffcient servces to help them become employed. Though its varous
       components and monthly press releases of client success stories, the progr has
       enhanced public awarness of the many diculties which recipients must



Oklahoma                                OVERVIEW STATEMENT                             A-I
       overcome in order to obta and mainta employment and of the excellent
       employees they beome. These efforts and the focus on employment-related
       activities as a social servce wi contiue as DHS implements the provisions of
       the Job Opportnities and Basic Skils Progr.

       Effective July 1 ,
                      1989, under the authority of the Family Support Act of 1988,
       DHS expanded its existig progr to include a greater focus on education and
       renamed the   progr, Education, Traning and Employment (ET &E) Progr.
       The State has also submitt a request for waiver authority to continue to
       mandate that al AFC parnts parcipate in activities designed to lead to
       employment. Speifcaly, the waiver wil requir parnts with children under age
       one and mothers in their seond and thd tresters of pregnancy (pending health
       considerations) to parcipate in ET &E activities and wi reui parnts with
       chidrn under age six to parcipate more than twenty hour per week. DHS
       believes that eliinatig these exemptions wi simpli adminstration and
       improve the qualty of the progr.

       As mandate by the Family Support Act, coordnation with other State and local
       progrs designed to help individuals secur   employment    is, and has been, an
       integr par of the ET &E Prgram. Ths effort includes referrng individuals to
       other organations for servces which ar   not avaiable   though DHS, conducting
      joint grup sessions for mutual clients and implementig special demonstrtion
       projects.

       Cunt demonstration projects include: day-tie general education (GED)
       classes in severa DHS county offces in conjunction with the public school
       system and GED classes in housing projects in Tulsa thugh joint efforts of the
       Deparent of Housing and Urban Development and Tulsa Public Schools;
       remedal education and ski   trg      for AFC mothers between the ages of 18 to
       21 with the Deparent of Labor, Oklahoma State Employment Servce (OSES)
       and Job Corp Centers in Guthe, Tulsa, Lawtn and Tahequah; testig,
       evaluation and counselig for mutual clients though the Assessment Centers. in
       Tulsa and Oklahoma County in cooperation with OSES, vocational-technical
       schools and the Job  Trag     Parership Act (ITA) progrs; Prject Lift- Off, a
       progr to provide basic education, ski traing and job placement with Central
       Oklahoma s ITA; carr exploration and job searh workshops for AFC youth
       in conjunction with ITA and Oklahoma City Communty College; literacy
       effort in four counties using AFC repients to tutor other AFC mothers; and
       a speial tring and employment project in four counties to recrt and trai
       pennanent employees for a national company in an effort to reuce tuover.

       Under the ET &E Progr, all applicants for and recipients of AFC are required
       to parcipate unless incapacitated over age  or neeed in the home to car for
       disabled member of the immedate famly. Approximately 80 percent of the



Oklahoma                             OVERVEW STATEMENT                                  A -2
       State AFC case load is requird to parcipate in the progr. Pror to July 1
       1989, an average of 3,900 AFC recipients per month were parcipating in a
       progr component.
       In addition to assisting recipients in securing education and training opportunities,
       the ET&E Program provides: individual assessments of the potential for
       employment, employabilty planning and employment counseling; Welcome
       Work (orientation/job readiess) groups; job search workshops; " hands-on " work
       experience in an actual job settig (CWEP); and referrals to and assistance in
       obtaining educational services, i.e., OED classes, literacy services, skill training,
       etc. Services which are available to ET &E parcipants include:
       vendor-purchased day car; counselig; child health screnings; family planning;
       reimbursement of trsporttion expenses; clothing and unifonn alowances;
       medcal examinations; payment of GED test fees; and referrs to other agencies
       for servces not available from DHS. DHS' extensive day care progr for
       recipients parcipating in employment-related activities and those securng
       employment has been crcial to the success of the progr.

       The ET&E Program operates through the Family Support Services Division of
       the Deparent of Human Services. AFC social workers in each of the
       seventy-nine county offces complete Parcipation Agreements, individual
       assessments, employabilty plans and make appropriate referrals to components.
       Each local offce has designated one or more staf to serve as job developers.
       These social workers are responsible for: contactig employers; establishing
       CWP slots and makg placements; conductig Welcome to Work and job
       search group sessions; coordiatig with other education tring and
       employment programs includig ITA , Displaced Homemakers, vocational
       technical schools, public schools, literacy councils , etc. ; and assistig in stafng
       of individual cases.

       All DHS progrs ar State supervsed. Unlike many progrs, however, the
       ET&E Program was designed to be flexible enough to allow each of the county
       offces to adapt progr proedures to meet the needs of their clients. This
       flexibilty has been crucial to the program s success and has given the counties a
       sense of "ownership " of the progr.

       DHS, though its E&T Progr, has helped more than 46, 000 AFC recipients
       secure full- tie employment resulting in estimated taable earings of over
       $320, 00, 00. Estiated savings from reuctions and closures of AFC grants
       total $155,     00. Annual expenditues for the E&T Progr average $5.
       milion , including child car and administration.




Oklahoma                                 OVERVIEW STATEMENT                              A­
       The E&T Progr has generated wide public support for services designed to
       help individuals attai   economic self-suffciency. Employers, including public
       and private, non-profit agencies, have provided extensive opportnities for   those
       seeking help to improve their status. DHS looks forward to helping others
       become independent and more productive members of society.




Oklahoma                                 OVERVIEW STATEMENT                            A­
                              Appendix B





Oklahoma   SAMPLE DOCUMENTS          B-1
                                                        STATE OF OKLOMA                        Office Use   Only
                                                 DEPARTM OF          HU SERVICES          To J. D. Date
                                                                                          To J. D. Date
                                                        EMPLOYM PROFILE                   To J. D. Date
 ASSESSMENT

        Instructions:             Pages 1-3 are completed by the Registrant.

        I Please provide the information asked for beginning on this page, to the best of
        i your ability. If the question doesn t apply to you put   N/A"   The information
        : you provide will be used to decide which Employment & Training assignments  will
        ! be the most valuable to you and to aid in the development of your self- support
          plan.
 NAME                                                                      CASE NO.              PHONE

EMPLOYMT HISTORY

         Last employer                                                Start date                    End date

         Job title                                                    Last supervisor I s name

         Job responsibilities



         Reason for leaving


         Other employer                                              Start date                    End date

         Job title                                                   Reason for leaving



        Other employer                                               Start - date                  End date

        Job title                                                    Reason for leaving



        What was the best job you ever had and why?





        What skills do you have?



        Have you done any volunteer work?                  If so, what?



        Has a doctor placed any           limitations      on your      ability     to work?



Okla. DHS Pilot 2
                                             -1-                                                 ET-2
                          --_.
                         ---
 EMPLOYM DESIRE

                   the types of work you would like to          do.

       Why?
      I Indicate


                                                 Yes
       Are you willing to get the training and develop the skills necessary to do

       these types of jobs?
 YOUR COMMS

       If you were talking to an employer, what would
                                                      you tell him about yourself?

       Include why you think he should hire you.





 EDUCATION & TRINING

       Check the highest    grade you completed in school

           1-6

                                                                                     12+
       DOYOUhaVe a high school diploma?                        Yes
      Do you have a GED certificate?                                                       Year
                                                               Yes                         Year
      Name of business or trade         school          From
      attended
      Tye of training r ceived                             tificate or License obtained


      Name of cOllege    attended                       From

      Major                                             Certif icate,   Degree or License obtained


      Identify    any vocational, apprenticeship    training, on-the- job training,
 or
      training                                                                              other

                  received - include dates


      Are you currently taking         classes          What are they?

      or courses?

                                 Yes

      Where?                                            When do you expect to finish?



      Have you participated 
 in a job club             Have you ever been through   vocational/job
      or employment- related workahop?                  testing?
               Yes                     Year                               Yes              Year

Okla. DHS Pilot 2

                                                  -2-                                       ET-2
         --                                                          --       --
TRIN/EDUCATIOH DESIR       - The following informtion is to help in planning.                      When
possible. DHS will help you get the training or schooling you need.

      Are you interested in going to training or to school?                                Yes

       Check which one:

               Reading Skills
               Work Exerience   (non -   paid)                            Vocational Training
               On-the-Job Training (paid a       salar)                   College
       Would you like to finish high school or get your GED?                         Yes


DAY

       How will your children be cared for when you start school or training or begin

       working?


       Ages of children needing day care when you are in school. training or working.




TRSPORTATION

       Do you have a car or truck you can                 Do   you    have a driver s license?
       use?

                      Yes                                                     Yes



               Yes
       Do you live near a bus line?                       What is the distance to the bus stop?



       If you begin training or a job, how will you get to and from if you don                    I t have   a
       car or can I t take a bus?




YOUR COMMS

       Is there anyth ng else you would like to tell us about yourself?





                                                   Participant Signature                           Date
Okla. DHS Issued 8/1/89                             -3-                                                   E:T-2
                                                            ~~~




COMMUNITY WORK EXPERIENCE PROGRAM



 The        Community Work Experience             How   do you benefit as a CWEP

 gra (CWEP) is designed to improe the             Training facilty

 employbilty of welfare recipients
. through work experience and trnig               CWEP    alow you to trn    eaer   persnnel
 enable them to obtan ful-      tie               to fi   futu vacant slots at no cost to
 employment.                                      you.
   Community Work Experience Progra               CWEP  alow you to observe. first hand.
 pacipants are placed in approed                  the work habits of the individual and
 public and non- profit organtions and
 agencies. Placements may rage from
 clericalceptionist and occupational
                                                  pletion of  trg.
                                                  gives you the option to hire upon com­

 therapy aide to patrolman-on-foot and            CWEP   prodes intagible benefits; the
 foo servce.                                      satisfaction of helping individuals grow
   Individuas ar placed accordg to                and develop and   incre     their self
 their preous work exrience. interests            esteem.
 and abilties. The approd        trg
                                   facil­
 ty wi have the opportunity to conduct               If you would li to prode eWEP

 trg.
 an intervew prior to placement in                 trg,     contact your local county offce
                                                 . of the Depaent of Human Servces.
     saar is          paid to CWEP pacipats
 durg trg
       No
             the         period. Pacipats
 contiu        to reeive their AF   benefits
         reimburment for trning ex­
 as well as
 pense unionns and day car when                                         cou
 needed.
  The inti          trg
                     placement is the
 months; it may be exended when
 necess            Followg completion of
 ing. soial workers from the Deparent
                                           tr­
 of Human Services asist the individual
 in findig a ful- tie job. thus helping
 her to beme economicaly independent.
fff#for
    for bHol'
                                                           COp.
                                                                   p.LJNI1Y

                                                                      fNC
Th pubUcauon Ia.utlor
for Hum Scl'cc In
reuo  an  prte by th
Co ofpruo an
                     ac
DHS Pub. No. 86-145 Revised 7/88

                     by tie Oldom Collon

                       De
                    dJbu
                            WI atte " and fcd
                              of Hum
                          - 822 for 5. 00
                                               Sc"
                                                co.
                                                           wop.K
                                                               pfP.
                                                           Pp.OG
DHS lain coplice   WltI TItle VI and TItle VI or the 196
Civi Rli/ll. Act and the RcbWtaUon Act or 1973. Copla
have ben
Llbr     dcted      With tie Oldoma Depaent of
       PubUcauolI ClcaOU.         FOt .ddluona copla,
cota tie DHS Empl0) Llbt. (40)521-3727.
                            -"'..'.".
                              .       -   ..   ".- - _                    ' ". _                                - -    .. .. . . ... .. .. ..       ' .     . " ' -                                               . '
                                                                                                                                                                                                                  - ' ' ::'                        ::-.   ...        - -- - . .... :..
                                                                                                                                                                                                                                                                                    '             :?:"     ..




                     ARE              YOU                 CURRENTLY HIRING NEW EMPLOYEES?

                        Y" ACCESS FREE HIRING SERVICES                                                                                                       Y" REDUCE TRAINING COSTS
                        The Oklahoma Deparent of Human Services,                                                                                           You wil receive, through DHS. reimbursement of up to
                     through its E&T CONNECTIONS Progra, can provide                                                                                  $250 per month of the wages paid to each employee dur­
                     job-ready employees from which you may choose. And                                                                               ing the  trning period.
                     DHS wil share in the cost of trning them.                                                                                          Surprisingly, there is only a small amount of red tape
                       DHS traners wil interview all paricipants prior to                                                                             involved. We develop a simple contrct with you. describ­
                     makng job refemls in order to provide you with qualifed.                                                                         ing the job to be taught. the length of trning period and
                     dependable employees.                                                                                                            details of reimbursement.
                      Before our paricipants are referred to employers, they
                     must meet importt job-readiness criteria such as:
                           . strong motivation to gain                           economic independence                                                       1/ IMPROVE CASH FLOW
                                                                                                                                                        There are other benefits as well. Substatial income
                               and occupational goals;
                           . abilty to accept supervision                              and work as par of                                             credit for instace. By employing an E&T CONNECTDNS.
                               a team;                                                                                                                parcipant. you can claim a                                               ta credit equal to 40 per­
                           . ability to         understad and follow directions and
                                                                                                                                                      cent of the fit$6.                               00 in wages paid in the first )'ar
                               communicate well;	                                                                                                     (employees must be   retaed at least 90 days and work
                                                                                                                                                      at least 120 hours) under the provisions of the Federa
                           . demonstrte reliabilty and                             wilingness to lear;
                                                                                                                                                      Thgeted Jobs Th Credit.
                           . absence of medical problems which would afect                                                                                 Through E& CONNECTIONS you save twice- as a
                             job performance; and                                                                                                     businesman and as a taayer.                                                             E& CONNECTIONS
                                                                                                                                                                                                                                   The
                           . trsporttion and child care argements.                                                                                    employee sta payig                                       taes instead                    of receiving welfare.


                                   WHAT TO DO NEXT: Call the local DHS County Offce. We ll give you detaled information
                                    or get right to work helping you fill a specifc job. Or. call the DHS E& Progra at 405/521. 3931.
                                    Ask for the E& CONNECTIONS.




                                                                                                                                                                                                                                                                                            JlfF'

                                                                                                                                                                                                                                                                C'



.. 0 D .. .. .   - . 0 0". 	                   .. .. .... .....,.... 0.. &0 .. .. co .. .. ". . . . .. .. G ." . 0 .....                        .. 0 .. .. .. .. .. .. " II ., " .. 0 .. .. 0 0 0 0 0 0 . . . 0 .. 0 0 0 0 0 0 0 0 0 . 0 . 0 0 . 0 . . . 0 0 .. 0 . .. .. . . . 0 . 0 0 0 . 0 0 0 0 . 0 .. o




                                                                                         Please return this form to:
                                                                                         Oklahoma Deparent of Human Services
                                                                                         Family Support Services Division
                                                                                         Ec! CONNECTIONS Progra

                                          1/#!1Mrt"J/	
                                                                                         Thlephone: 405/521- 3931



                           o I would              like more infonnatlon on the Oklahoma Ec! CONNECTIONS Prgra.

                           Please print

                           NAME (Last Name)	                                                                                                    FlBt                                                                       Middle


                           COMPANY NAME	                                                                                                                                                                                                  TELEPHOI"E NCMBER


                           ADDRESS


                           CITY                                                                                                                 STATE                                                                        ZIP CODE
                                                                                                                                 ....-- .. ..-... ---
                          "'-"".0      ,...t..t          .. ""."""'''4 
            ."'U aAi: n.. nun AU             .&N4n.a
                        INO//,31NN03 /,'1

DHS Pub. No. 87-                                                                                                                         Revised 3/88

                                                                    II         with lUte and   fed rell                          01   Hw Se.   Cot of
Th publuoa lI authortze by th
               Okl                                  fa Hw    Se          ac                               an prted by th Det                    prll
an dlsbuuon was   &35 lor s.oo    DHS II II                                      196 CI Rtll Ac ID th     RebWI                                  Oil
Det       01
              co
               /J    PubUcIl

                                 60
                                 CIc:         capbl wi Till VIan Titl VB 01 ti
                                              Fe. 8d1I   co    calK DHS    Empl Ubn- 140152/.372­
                                                                                                                   Ac ol1973- Co ba'l be dete with th
                                                                             Oklahoma Deparment of Human Services
                                                                             Family Support Services Division
                                                                             E&T CONNECTIONS Progra

                                                                              O. Box 25352
                                                                             Oklahoma City. OK 73125
